             Peace Corps
             Office of Inspector General




PC/Mongolia office in Ulaan Baatar    Volunteers teaching English to special needs children




                                Flag of Mongolia




                     Final Audit Report:
                    Peace Corps/Mongolia




                                                              February 2010
  Final Audit Report:
 Peace Corps/Mongolia
      IG-10-07-A




____________________________________
         Gerald P. Montoya
Assistant Inspector General for Audit




          February 2010
                                EXECUTIVE SUMMARY

We found that Peace Corps/Mongolia’s financial and administrative operations were
operating effectively and in overall compliance with agency policies and federal
regulations. However, we noted several areas requiring attention. These are summarized
below.

Procurement
The post did not have on file security clearance updates for 13 personal services
contractors (PSCs). The Regional Security Officer confirmed that the required updates
were in progress. Timely and complete due diligence with respect to security clearances
is important to ensure the continued suitability of the post’s contractors.

Personnel Management
For one PSC, the 2008 ending balances for annual and sick leave were not correctly
carried over to 2009 in the official time and attendance records. The timekeeper corrected
the discrepancies upon our bringing them to her attention.

Safeguarding of Personal Information
The cashier’s accommodation exchange authorization forms contained the Social
Security numbers of the U.S. direct hires. In addition, the Volunteer medical files labels
included their Social Security numbers. Having social security numbers on post files and
documents subjects the affected individuals to the potential effects of identity theft.

Medical Supplies
The post’s medical supplies listing contained discrepancies in expiration dates. In
addition, the medical supplies dispensed form did not always indicate the quantity
dispensed for entry into the inventory records.

Our report includes comments from post staff and Volunteers interviewed. Our report
contains five recommendations, which, if implemented, should strengthen internal
controls and correct the deficiencies detailed in the accompanying report.




Final Audit Report: Peace Corps/Mongolia                                                     i
                                                    Table of Contents

EXECUTIVE SUMMARY ............................................................................................................... i

INTRODUCTION.......................................................................................................................... 1

AUDIT RESULTS ........................................................................................................................ 1

A. IMPREST FUND MANAGEMENT ............................................................................................ 1

B. PROCUREMENT .................................................................................................................... 2

C. VOLUNTEER PROPERTY HELD FOR SAFEKEEPING ................................................................ 2

D. HOST COUNTRY CONTRIBUTIONS ........................................................................................ 3

E. PERSONNEL MANAGEMENT.................................................................................................. 3

F. SAFEGUARDING OF PERSONAL INFORMATION ...................................................................... 3

G. MEDICAL SUPPLIES.............................................................................................................. 4

QUESTIONED COSTS AND .......................................................................................................... 6

FUNDS TO BE PUT TO BETTER USE ............................................................................................ 6

POST STAFFING ......................................................................................................................... 7

LIST OF RECOMMENDATIONS .................................................................................................... 8

OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................................. 9

APPENDIX A: MANAGEMENT'S RESPONSE

APPENDIX B: OIG COMMENTS

APPENDIX C: AUDIT COMPLETION AND OIG CONTACT
                                      INTRODUCTION

The Office of Inspector General conducted an audit of Peace Corps/Mongolia September
2 - 25, 2009. We previously performed an audit of the post in November 2002 (IG-02-
27-A, issued March 2003).

The Peace Corps commenced its program in Mongolia in 1991. Since then, over 725
Volunteers have served there. At the time of our visit, 120 Volunteers were engaged in
four projects: English education and community development, community youth
development, community-based health, and community and economic development.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations were functioning effectively and complied with Peace Corps
policies and federal regulations during the period under audit. A full description of our
audit objective, scope, and methodology is provide at the end of this report.



                                      AUDIT RESULTS

We found that Peace Corps/Mongolia’s financial and administrative operations were
operating effectively and complied overall with agency policies and federal regulations.

We noted a number of areas requiring attention. For example, we found that the post did
not:

  •   Change the combination to the imprest fund safe annually.
  •   Obtain security clearance updates for all its personal services contractors (PSCs).
  •   Keep accurate forms listing Volunteer property held for safekeeping.
  •   Document the basis for calculating host country contributions.
  •   Ensure that post documents and files did not contain the Social Security numbers of
      staff and Volunteers.
  •   Maintain accurate medical supplies inventory records.


A. IMPREST FUND MANAGEMENT

1. The imprest fund safe combination had not been changed in over a year.

Peace Corps Manual (PCM) section 760.5.2 states: “The combination [to the imprest
fund safe] should be changed at least annually, whenever there is a change in cashiers, or
whenever the combination becomes known to a person other than the cashier.”



Final Audit Report: Peace Corps/Mongolia                                                   1
The combination to the imprest fund safe of the cashier had not been changed since June
2008. Changing the safe combination as required reflect the cashier’s responsibility for
safeguarding the imprest fund and her personal accountability for its contents.

Subsequent to our visit, the administrative officer informed us that the safe combination
was changed on September 11, 2009. Accordingly, no recommendation is required.


B. PROCUREMENT

1. The post did not have security clearance updates for all PSCs requiring them.

PCM section 743.8.2 states: “The CD must request re-certification of a continuously
employed PSC every five years in accordance with 12 FAM 420. Documentation of the
security certification will be filed in the individual PSC’s contract file at post.”

Security clearance updates for 13 PSCs were not on file. The country director sent a
request to the Regional Security Officer (RSO) dated August 28, 2009 to have these
completed. The RSO confirmed to us that he had received the request and was in the
process of updating the security clearances. Security clearance updates are an essential
element in the post’s due diligence to ensure PSCs’ acceptability for continued Peace
Corps employment.


                 We recommend:

                 B.1.1 That the post obtain the missing security clearance
                       updates from the Regional Security Officer and
                       place the updates in the PSCs’ contract files.


C. VOLUNTEER PROPERTY HELD FOR SAFEKEEPING

1. Two forms listing Volunteer property held for safekeeping were incorrect.

In accordance with PCM section 235.3.5, the post held Volunteer property for
safekeeping. When the designated staff member accepted property from a Volunteer, she
recorded the items on a Volunteer property form. The Volunteer was given a copy of the
form as receipt.

While the results of our review of the Volunteer property forms indicated that the forms
were, in general, being conscientiously maintained, we found two discrepancies. One
form had not been updated for the removal by the Volunteer of the items. Another form
indicated that everything had been removed when, in fact, items were still being held by
the post. The designated staff member told us that she relied upon the Volunteers to
update the post’s form.


Final Audit Report: Peace Corps/Mongolia                                                    2
During the course of the audit, she corrected the two Volunteer property forms, and the
administrative officer issued instructions to her to personally complete the forms.
Accordingly, no recommendation is required.


D. HOST COUNTRY CONTRIBUTIONS

1. The post did not document the basis used for estimating its host country
contributions (HCC) for Volunteer housing.

PCM section 722.7.2.1 states: “The recorded value of in-kind contributions shall be
based on a rational estimate of the cost of the contributed supplies or services to the
Peace Corps. PCM 722.7.2 requires that the post maintain an annual log which, among
other things, identifies “the basis for the estimate.”

The post received Volunteer housing and related utilities as a HCC, and the post reflected
the HCC in its operating plan. However, the post did not document the basis for the
valuation of the Volunteer housing. During the course of the audit, the staff member
responsible for monitoring HCCs documented the calculation of Volunteer housing and
utilities and placed it in the HCC records. Accordingly, no recommendation is required.


E. PERSONNEL MANAGEMENT

1. The post’s official time and attendance records did not accurately carry over the
ending leave balances from 2008 to 2009 for one PSC.

PCM sections 742.6.1 and 630.4.6 provide guidance in proper time and attendance
procedure.

During our review of the post’s official time and attendance records, we noted that, for
one PSC, the timekeeper did not accurately carry over, to 2009, the 2008 ending balances
of annual and sick leave. During the course of the audit, the timekeeper corrected the
discrepancy. Accordingly, no recommendation is required.


F. SAFEGUARDING OF PERSONAL INFORMATION

1. Post documents contained the Social Security numbers of staff and Volunteers.

“Peace Corps Plan to Reduce Use of Personally Identifable Information and Social
Security Numbers,” dated September 7, 2007, states: “Peace Corps’ policy is to eliminate
the unnecessary collection and use of SSNs.” Further: “In almost all cases, the Volunteer
Identification Number could take the place of the SSN for Volunteers. There are only a
few instances where SSNs are required, and none of these is overseas.”


Final Audit Report: Peace Corps/Mongolia                                                  3
During the course of the audit, we noted the following situations where the post
maintained the full SSNs:

•   The cashier’s accommodation exchange forms contained the U.S. direct hires’ SSNs.
    During the course of the audit, the cashier deleted the SSNs from the forms.
    Accordingly, no recommendation is required.

•   The Volunteer medical file labels included their SSNs. The labels had been sent to
    the post by the Office of Medical Services. The medical secretary told us that the
    labels were also used on specimens sent to laboratories in the United States. The
    elimination of SSNs on post medical records would help protect against identity theft
    and unauthorized access to Volunteers’ personal information.


                 We recommend:

                 F.1.1 That the post delete the Volunteers’ Social Security
                       number from the medical unit tabs and not use the
                       Volunteers’ Social Security number on specimens
                       sent outside the post.

                 F.1.2 That the Office of Medical Services substitute the
                       Volunteer identification number for the Social
                       Security number on its labels sent to posts, and
                       instruct medical officers to use the Volunteer
                       identification number on specimens sent outside the
                       office.


G. MEDICAL SUPPLIES

1. The post’s medical supplies inventory records contained discrepancies.

PCM section 734.3.5, “Inventory Control for Medical Supplies,” states: “Assurance that
effective controls are in place is achieved through…accurate record keeping….”

We noted discrepancies in expiration dates between the medical supplies on hand and the
related inventory records. For one drug, the records showed four boxes with an expiration
date of April 2012. In fact, three boxes had this expiration date, and one box showed an
expiration date of February 2010. Also, the records showed, for another drug, four boxes
with an expiration date of July 2013. In fact, one box had this expiration date, and three
boxes showed an expiration date of June 2013.

In addition, the medical officers did not always list the quantity dispensed on the medical
supplies dispensed form.


Final Audit Report: Peace Corps/Mongolia                                                  4
Accuracy and completeness in the recording of medical supplies information are essential
in detecting and preventing waste, fraud, and abuse.


                 We recommend:

                 G.1.1 That the post conduct a complete physical inventory
                       of medical supplies in accordance with PCM
                       section 734 and update the inventory records as
                       required.

                 G.1.2 That the medical officers always list the quantity
                       dispensed on the medical supplies dispensed form.




Final Audit Report: Peace Corps/Mongolia                                              5
                        QUESTIONED COSTS AND
                     FUNDS TO BE PUT TO BETTER USE

We did not identify questioned costs and funds to be put to better use during the course
of the audit.

                                           Questioned Costs


Recommendation                                   Description                     Amount
    number
                       None.



                               Funds to be Put to Better Use


Recommendation                                   Description                     Amount
    number
                       None.




Final Audit Report: Peace Corps/Mongolia                                                   6
                                      POST STAFFING

At the time of our visit, the post had 29 staff positions: three U.S. direct hire employees,
two U.S. PSC medical officers, three foreign service nationals, and 20 local-hire PSCs.

We interviewed a selection of staff members including the country director,
administrative officer, program and training officer, one of the two medical officers, and
various local staff. All staff interviewed told us that they very much enjoyed working at
the Peace Corps. They stated that, in particular, they enjoyed supporting and interacting
with the Volunteers.

Volunteers told us that they appreciated the interest shown by the staff in their success
and well-being as demonstrated by the numerous site visits by program, medical, and
other staff members. Volunteers also stated that they had received effective ongoing
support from the administrative unit and noted, in particular, their availability and
responsiveness.


                                      PC/Mongolia Positions
                                      Position                       Status
             Country Director                                        USDH
             Administrative Officer                                  USDH
             Program and Training Officer                            USDH
             Safety and Security Coordinator                          PSC
             APCD/Program Manager                                     FSN
             Program Manager (3)                                      PSC
             Program Assistant (3)                                    PSC
             Cashier                                                  FSN
             Financial Assistant                                      FSN
             Administrative Assistant                                 PSC
             IT Specialist                                            PSC
             General Services Manager                                 PSC
             General Services Assistant                               PSC
             Training Manager                                         PSC
             Training Coordinator                                     PSC
             Medical Officer (2)                                     USPSC
             Medical Secretary                                       US/PSC
             Driver (3)                                               PSC
             Guard (4)                                                PSC




Final Audit Report: Peace Corps/Mongolia                                                       7
                          LIST OF RECOMMENDATIONS

We recommend:

B.1.1 That the post obtain the missing security clearance updates from the Regional
      Security Officer and place the updates in the PSCs’ contract files.

F.1.1 That the post delete the Volunteers’ Social Security number from the medical unit
      tabs and not use the Volunteers’ Social Security number on specimens sent
      outside the post.

F.1.2 That the Office of Medical Services substitute the Volunteer identification
      number for the Social Security number on its labels sent to posts, and instruct
      medical officers to use the Volunteer identification number on specimens sent
      outside the office.

G.1.1 That the post conduct a complete physical inventory of medical supplies in
      accordance with PCM section 734 and update the inventory records as required.

G.1.2 That the medical officers always list the quantity dispensed on the medical
      supplies dispensed form.




Final Audit Report: Peace Corps/Mongolia                                                8
              OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and comply with Peace Corps
policies and federal regulations. Our audit conclusions are based on information from
three sources: (1) document and data analysis, (2) interviews, and (3) direct observation.
Our audits are conducted in accordance with the government auditing standards
prescribed by the Comptroller General of the United States.

The audit of Peace Corps/Mongolia covered fiscal years 2008 and 2009 through August
31, 2009. While at the post, we interviewed key staff including the country director, the
administrative officer, the program and training officer, the safety and security
coordinator, staff responsible for administrative support, and the medical officer. We
also interviewed Volunteers to obtain their views on the effectiveness of the post’s
administrative and financial systems in supporting them. At the end of the audit, we
briefed the country director and administrative officer. At headquarters, we conducted a
general briefing for regional staff.

We relied on computer-processed data from the post’s accounting system. While we did
not test the system’s controls, we believe the information generated by the system and
used by us was sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace
Corps manual, Overseas Financial Management Handbook, and current Peace Corps
initiatives and policies.




Final Audit Report: Peace Corps/Mongolia                                                     9
APPENDIX A

             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
MEMORANDUM

To:         Kathy Buller, Inspector General
Thru:       Nicola Cullen, Acting Agency Compliance Officer
From:       David Burgess, Acting Director, Europe, Mediterranean and Asia Region
Date:       January 13, 2010
Subject:    Response to Preliminary Audit Report December 2009



The Europe, Mediterranean and Asia (EMA) Region appreciates the opportunity to respond to
the Preliminary Report on the Audit of Peace Corps/Mongolia, submitted by the Office of the
Inspector General in December 2009. The Preliminary Audit Report presented five Findings
and Recommendations. The EMA Region concurs with each of the 4 Findings and
Recommendations for which it and the PC/Mongolia post have direct implementation
responsibility.
One Audit Recommendation, and part of a second Recommendation, are under the purview
of the Peace Corps Office of Medical Services (OMS), which has provided the EMA Region
with its response. That response is also included in this overall Response to the OIG (see
attached e-mail from OMS).

EMA REGION and OMS RESPONSES

1. Recommendation B.1.1.: That the post obtain the missing security clearance
   updates [for PC/Mongolia staff members] from the Regional Security Officer and
   place the updates in the PSC’s contract file.

      Concur. PC/Mongolia requested 13 lapsed security clearance updates from the RSO on
      August 28, 2009. During the RSO review process, 2 of these staff members resigned,
      reducing the requested clearance updates to 11 staff members. By November 4, 2009 all
      11 clearances had been received and the renewed security clearance documents were
      placed in the respective PSC’s contract folder.

      See Attachment 1 for a roster and copies of the 11 security clearances.

      Completion date: November 4, 2009


2. Recommendation F.1.1.: That the post delete the Volunteer’s Social Security
   Number from the medical unit tabs and not use the Volunteers’ Social Security
   Number on specimens sent outside the post.

        (a) Delete Volunteer SSN from medical file tabs.




                                                                                          1
    Concur. The SSN on the Volunteer medical file labels has been thoroughly blacked-out
    so it cannot be read. New files will not have an SSN identification on the file label.

    Completion date: December 11, 2009


       (b) Do not use Volunteer SSN on specimens sent outside of post.

    Concur. OMS concurs that it is desirable that Volunteer SSNs not be used on
    specimens sent outside of post.

In 2007, the Office of Management conducted a thorough evaluation of all forms with
personally identifiable information (PII) in an effort to comply with OMB mandates and
subsequent OIG recommendations.

Due to the nature of healthcare, a unique identifier is required for OMS processes. At this
time, the agency is using the Social Security Number. Dire consequences to health and life
can occur if a unique identifier is not utilized. Current Peace Corps information technology
systems require OMS to use the Social Security Number (SSN) and this has been addressed
with other appropriate offices.

In March 2008, the Office of Medical Services (OMS) submitted to the Office of
Management a detailed description of all documents and forms containing personally
identifiable information (PII). The PII inventory was required to be completed and submitted
by all departments within the agency. While many reductions in the use of PII have taken
place, removal of the SSN would require another unique identifier to be used in its place and
applied across all systems. Through a series of meetings, the use of the volunteer ID (Vol
ID) as a replacement unique identifier was discussed. To date, the use of the Vol ID as a
replacement identifier for the SSN has not been implemented by the Agency and thus OMS
systems have not been modified to eliminate the use of social security numbers. It is
anticipated that the implementation of the Volunteer Delivery and Support project will lead to
cessation of SSN use.

    Completion date: December 31, 2011 (estimate), depending upon agency
    implementation of the VDS redesign project and the capability of using a uniform
    assigned Vol ID number.


3. Recommendation F.1.2.: That the Office of Medical Services substitute the
   volunteer identification number for the Social Security number on its labels sent to
   posts, and instruct medical officers to use the Volunteer identification number on
   specimens sent outside the office.

    Concur. OMS concurs that it is desirable that Volunteer SSNs not be used on
    specimens sent outside of post.

Due to the nature of healthcare, a unique identifier is required for OMS processes. At this
time, the agency is using the Social Security Number. Dire consequences to health and life
can occur if a unique identifier is not utilized. Current Peace Corps information technology


                                                                                               2
systems require OMS to use the Social Security Number (SSN) and this has been addressed
with other appropriate offices.

In March 2008, the Office of Medical Services (OMS) submitted to the Office of
Management a detailed description of all documents and forms containing personally
identifiable information (PII). The PII inventory was required to be completed and submitted
by all departments within the agency. While many reductions in the use of PII have taken
place, removal of the SSN would require another unique identifier to be used in its place and
applied across all systems. Through a series of meetings, the use of the volunteer ID (Vol
ID) as a replacement unique identifier was discussed. To date, the use of the Vol ID as a
replacement identifier for the SSN has not been implemented by the Agency and thus OMS
systems have not been modified to eliminate the use of social security numbers. It is
anticipated that the implementation of the Volunteer Delivery and Support project will lead to
cessation of SSN use.

    Completion date: December 31, 2011 (estimate), depending upon agency
    implementation of the VDS redesign project and the capability of using a uniform
    assigned Vol ID number.


4. Recommendation G.1.1.: That the post conduct a complete physical inventory of
   medical supplies in accordance with PCM section 734 and update the inventory
   records as required.

   Concur. On December 14, 2009 PC/Mongolia conducted a physical inventory of
   medical supplies in accordance with PC Manual Section 734. Inventory records
   were updated as required.

   See Attachment 2 for documentation of this completed Inventory.

   Completion date: December 14, 2009


5. Recommendation G.1.2.: That the medical officers always list the quantity
   dispensed on the medical supplies dispensed form.

   Concur. Form 734D, Record of Medical Supplies Dispensed, will hereafter include the
   quantity of each medical supply dispensed. The Country Director has added a check of
   this requirement to his quarterly medical supplies review.

   Completion date: September 26, 2009


In addition, PC/Mongolia has implemented a number of other beneficial administrative
practices suggested by OIG Auditor Steven Kaffen. These procedures address a number of
minor discrepancies that Mr. Kaffen identified and which the post promptly corrected in the
areas of Personnel Management (Leave Administration), requesting Travel Authorizations,
and Recording Property held for safekeeping. PC/Mongolia appreciates these improvements.



                                                                                             3
APPENDIX B

                               OIG COMMENTS

Management concurred with all five recommendations. We closed recommendations
B.1.1, G.1.1, and G.1.2. Recommendations F.1.1 and F.1.2 remain open pending
confirmation from the chief compliance officer that the Office of Medical Services has
set a more immediate date for the elimination of Volunteer Social Security numbers on
labels sent to the posts and on specimens sent outside the posts, rather than the
December 31, 2011 date estimated by OMS in the “Response to Preliminary Audit
Report December 2009” in Appendix A.

In their response, management described actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that the region or post has taken these
actions nor that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when we feel it is warranted,
we may conduct a follow-up review to confirm that action has been taken and to evaluate
the impact.
APPENDIX C

                AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION
Senior auditor Steven Kaffen performed the audit of PC/Mongolia.


OIG CONTACT
If you wish to comment on the quality or usefulness of this report to help us strengthen our
product, please e-mail Gerald P. Montoya, Assistant Inspector General for Audits, at
gmontoya@peacecorps.gov, or call him at 202.692.2907.
         REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and mismanagement related to
Peace Corps operations domestically or abroad. You can report
allegations to us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  800.233.5874
               Washington Metro Area:              202.692.2915


Fax:           202.692.2901

Email:         oig@peacecorps.gov
